                                              OCCUPATIONAL SAFETY AND
                                              HEALTH ADMINISTRATION


Office of Inspector General—Office of Audit




                                              OSHA NEEDS TO IMPROVE OVERSIGHT OVER
                                              THE MANAGEMENT ACCOUNTABILITY
                                              PROGRAM




                                                                 Date Issued:   September 27, 2012
                                                              Report Number:      02-12-204-10-105
U.S. Department of Labor                                       September 2012
Office of Inspector General
Office of Audit
                                                               OSHA NEEDS TO IMPROVE OVERSIGHT OVER
                                                               THE MANAGEMENT ACCOUNTABILITY
                                                               PROGRAM
BRIEFLY…
Highlights of Report Number 02-12-204-10-105, issued
to the Assistant Secretary for Occupational Safety and         WHAT OIG FOUND
Health.
                                                               The OIG found DEA’s oversight of MAP did not help
WHY READ THE REPORT                                            ensure that OSHA programs were in compliance with
                                                               national policies and procedures and performed
With the Occupational Safety and Health (OSH) Act of           effectively. First, DEA did not analyze and disseminate
1970, Congress created the Occupational Safety and             MAP report results to affect management’s decision
Health Administration (OSHA) to ensure safe and                making process. Second, DEA did not provide
healthful working conditions for working men and               comprehensive procedures for carrying out MAP duties
women by setting and enforcing standards and by                or develop training guidelines for staff. As a result, audit
providing training, outreach, education, and assistance.       reviews were not consistent from region to region and
The OSH Act covers employers and their employees               OSHA did not use the results of these reviews to
either directly through Federal OSHA or through an             improve operations.
OSHA-approved state program.
                                                               The systemic weaknesses in DEA’s oversight of the
In response to a Government Accountability Office              MAP occurred because OSHA had not emphasized the
(GAO) report, OSHA sought to improve its oversight of          critical importance of the MAP in providing OSHA with
OSHA programs by implementing the Management                   information on the performance of its programs. For
Accountability Program (MAP) in FY 2006. The program           example, DEA assigned only one position the
was established as one component of OSHA's internal            responsibility for performing day-to-day MAP
control system, as required by OMB Circular A-123.             operational activities, a position that carried additional
Specifically, MAP was implemented to: (1) assess the           responsibilities beyond monitoring MAP operations
efficiency and effectiveness of field activities in relation
to established policies and procedures, and (2) identify
best practices and deficiencies in performance with the
goal of improving program results.                             WHAT OIG RECOMMENDED
WHY OIG CONDUCTED THE AUDIT                                    The OIG recommended the Assistant Secretary of
                                                               Occupational Safety and Health strengthen DEA’s
During FY 2009-2010, GAO and Department of Labor               oversight by prioritizing the development and
(DOL) Office of Inspector General (OIG) issued seven           enforcement of procedures, holding DEA management
reports with concerns of the efficiency and effectiveness      responsible for MAP, and determining how best to
of several programmatic internal controls. OSHA                allocate resources.
officials have identified MAP as the solution to several
of the reported findings.

In order to determine how effectively the Directorate for
Evaluation and Analysis (DEA) had exercised oversight
over MAP, we designed our audit to answer the
following objective:

Did DEA’s oversight of the MAP help ensure that OSHA
programs were effective and in compliance with
national policies and procedures?

READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2012/ 02-12-
204-10-105.pdf
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA’s Accountability Program
                                    Report No. 02-12-204-10-105
                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 

Results In Brief .............................................................................................................. 2
 

Objective — Did DEA’s oversight of the Management Accountability Program 

(MAP) help ensure that OSHA programs were effective and in compliance with

national policies and procedures? .............................................................................. 3
 
          DEA’s Oversight of the MAP did not help ensure programs were effective 

          and in compliance with national policies and procedures. .................................... 3
 

Recommendations ........................................................................................................ 6
 

Exhibits 
          Exhibit 1 Accountibility Program Review Topics ................................................... 9
 
          Exhibit 2 FY 2010 Accountability Program Findings Summary........................... 11
 
          Exhibit 3 Sample Regions Focused (F) and Comprehensive (C) Workplan 

                    Schedule.............................................................................................. 13
 

Appendices 
          Appendix A Background ..................................................................................... 17
 
          Appendix B Objective, Scope, Methodology, and Criteria .................................. 19
 
          Appendix C Acronyms and Abbreviations .......................................................... 21
 
          Appendix D OSHA Response to Draft Report .................................................... 23
 
          Appendix E Acknowledgements ......................................................................... 25
 




                                                                                          OSHA’s Accountability Program
                                                                                           Report No. 02-12-204-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA’s Accountability Program
                                    Report No. 02-12-204-10-105
                                             U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                   Office of Inspector General
                                           Washington, D.C. 20210


September 27, 2012


                         Assistant Inspector General’s Report



Dr. David Michaels
Assistant Secretary
 for Occupational Safety and Health
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

In August 2004, the Government Accountability Office (GAO) issued a report entitled,
“Occupational Safety and Health Administration’s (OSHA’s) Oversight of its Civil Penalty
Determination and Violation Abatement Processes Has Limitations,” Report Number
GAO-04-920. GAO reported that while OSHA’s National Office received copies of
regional reports, it did not review them or use them to monitor the extent to which
penalties were calculated correctly and violations were properly abated. In addition,
GAO pointed out that the information in the reports was not complete.

In response to this report, OSHA sought to improve its oversight of OSHA programs by
implementing the Management Accountability Program (MAP) in 2005. The program,
which was revised most recently in September 2010, is implemented through Directive
EAA 01-00-004 and named Directorate for Evaluation and Analysis (DEA) as the
responsible office for overseeing the program. MAP comprises the part of OSHA's
internal control system devoted to monitoring by: (1) assessing the efficiency and
effectiveness of field activities in relation to established policies and procedures, and (2)
identifying best practices and deficiencies in performance with the goal of improving
program results.

During fiscal years (FY) 2009-2010, the GAO and DOL OIG issued seven additional
reports expressing continuing concerns over the efficiency and effectiveness of OSHA
programs. OSHA officials identified the MAP as the solution to several of the reported
findings.

In order to determine how effectively DEA had exercised oversight over MAP, we
designed our audit to answer the following objective:

       Did DEA’s oversight of the MAP help ensure that OSHA programs were
       effective and in compliance with national policies and procedures?



                                                                         OSHA’s Accountability Program
                                               1                          Report No. 02-12-204-10-105
                                                  U.S. Department of Labor – Office of Inspector General



Our audit examined FY 2007-2011 work plans and reports submitted to DEA in
FY 2010 and 2011, as of March 31, 2011. We reviewed policies, related reports from
GAO and OIG, and the applicable MAP Directive from July 2007 and September 2010 1.                     0F0F




We conducted interviews and tested compliance of both MAP directive at OSHA
Headquarters in Washington, DC, and the sample of four statistically selected regional
offices (Philadelphia, Denver, Chicago, and Dallas). There have been no changes made
in the directive since our audit was conducted.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

Results In Brief

DEA’s oversight of the Management Accountability Program (MAP) did not help ensure
that OSHA programs were in compliance with national policies and procedures and
performed effectively. First, DEA did not analyze and disseminate MAP report results to
affect management’s decision making process. Second, DEA did not provide
comprehensive procedures for carrying out MAP duties or develop training guidelines
for staff. As a result, audit reviews were not consistent from region to region. The main
component of MAP requires regions to identify both deficiencies in performance and
best practices with the goal of improving OSHA program results. Regional offices did
conduct reviews and identified areas of weakness consistent with GAO and OIG
reports. However, OSHA did not use the results of these reviews to improve operations.

The systemic weaknesses in DEA’s oversight of the MAP occurred because OSHA had
not emphasized the critical importance of the MAP in providing OSHA with information
on the performance of its programs. For example, DEA assigned only one position the
responsibility for performing day-to-day MAP operational activities, a position that
carried additional responsibilities beyond monitoring MAP operations.

In view of the crucial importance of the MAP in alerting OSHA to systemic weaknesses
in its programs, we recommend the Assistant Secretary of Occupational Safety and
Health strengthen DEA’s oversight by prioritizing the development and enforcement of
procedures, holding DEA management responsible for MAP, and determining how best
to allocate resources.




1
  The directive was changed, on September 15, 2010, to improve communication of review priorities and
response to report findings; clarify the frequency, scope, and methodology of field reviews; and provide
for greater, independent through DEA participation in Regional and selected Area Office Audits.

                                                                         OSHA’s Accountability Program
                                                    2                     Report No. 02-12-204-10-105
                                          U.S. Department of Labor – Office of Inspector General



OSHA’s RESPONSE

OSHA appreciated the time, thought, and effort expended by the OIG in conducting the
audit of MAP and, at this time, had no comment. OSHA’s response is included in its
entirety at Appendix D.


RESULTS AND FINDINGS

Objective — Did DEA’s oversight of the Management Accountability Program
(MAP) help ensure that OSHA programs were effective and in compliance with
national policies and procedures?

      DEA’s Oversight of the MAP did not help ensure programs were effective
      and in compliance with national policies and procedures.

DEA Did Not Analyze and Disseminate MAP Results to Affect OSHA
Management’s Decision Making.

DEA serves as the focal point for the collection and dissemination of reported results.
While regional offices provided reports containing findings, DEA could not show that it
disseminated report results as required by the MAP Directive namely to report annually
to the Deputy Assistant Secretary on the status of MAP reports and identify significant
findings and/or trends. DEA did not identify and disseminate information of either
systemic program weaknesses or best practices. In fact, DEA management did not
demonstrate MAP results had been provided to OSHA management during the entire
period of our audit. Without analyzing regional reports as required and disseminating
relevant findings or best practices, OSHA was not aware of systemic weaknesses in
areas such as civil penalty determination and violation abatement.

OMB A-123 Section II.B states, “Management should identify internal and external risks
that may prevent the organization from meeting its objectives…Identified risks should
then be analyzed for their potential effect or impact on the agency.”

Each region was responsible for preparing reports for Regional and Area Office reviews
of specific topics (see Exhibit 1). In FY 2010, OSHA’s 59 regions had provided DEA
reports with a total of 623 findings (see Exhibit 2). With each finding, the Regional
Administrators were required to ensure corrective actions were taken. OSHA officials
stated DEA was involved with ensuring corrective actions were taken on a regional
level. Yet, OSHA did not use the results of these reviews to improve operations.

GAO and Labor-OIG reports found deficiencies in OSHA’s civil penalty determination
and violation abatement processes during FYs 2009-2010, as shown by the following
two examples. First, a September 30, 2010, OIG report on OSHA’s Gravity Based
Penalties stated, “OSHA Area Directors did not document the justification for reductions
resulting from informal settlement agreements for an estimated 49 percent of reductions

                                                                OSHA’s Accountability Program
                                           3                     Report No. 02-12-204-10-105
                                          U.S. Department of Labor – Office of Inspector General



or $31.8 million.” As part of our work on this audit, we analyzed FY 2010 MAP reports
and determined that OSHA regional review teams found 37 areas of weakness
concerning penalties. Examples of the regions’ concerns included that penalties were
changed without supporting documentation and penalty reduction justifications were
missing from the case files.

Second, reports by both GAO and OIG of the Whistleblower Protection Program (WPP)
found OSHA lacked supporting documentation to ensure that data were accurately
recorded and verified in its database. Approximately 80 percent of applicable
investigations did not meet one or more of eight elements essential to the investigative
process.

Our analysis of the FY 2010 MAP reports revealed that OSHA review teams found
weakness in this same area, namely the lack of WPP supporting documentation. The
regions identified 12 additional WPP findings, including missing signed witness
interview reports, untimely processing, and missing draft copies of statements by the
complainants and their representatives. DEA did not document disseminating these
findings to OSHA.

DEA Did Not Provide Comprehensive Procedures for Carrying Out MAP Duties or
Develop Training Guidelines

DEA did not provide comprehensive procedures detailing how employees were to carry
out MAP duties concerning specific review topics. Current guidance for conducting
reviews lacked the detail and clarity needed to ensure reviews achieved the intended
results on a consistent basis across regions. While DEA did provide a checklist
containing the steps necessary for conducting reviews, DEA did not provide
comprehensive procedures to the regions on how to select and document the rationale
for the focus topics or communicate appropriate subjects for review based on DEA‘s
analysis of MAP results. At the time of the audit, DEA assigned only one position the
responsibility for performing day-to-day MAP operational activities, a position that
carried additional responsibilities beyond monitoring MAP operations.

MAP Directive IX.A.1 states, “the Director of Evaluation and Analysis shall be
responsible for establishing policy and procedures, and overseeing the MAP through
periodic review of IMIS data and the Regions' audit reports.”

Documentation showed that DEA was aware that regions did not select focus topics
consistently. For example, one region selected its focus topics based on requests from
regional management while another office selected topics based on statistical data.
With little consistency among the four sampled regional offices as to how focus topics
for review were selected, DEA could not demonstrate that serious weaknesses detected
through MAP were addressed systematically.

In addition, DEA did not specify reporting standards and formats as required to ensure
reports were consistent and therefore comparable. For example, FY 2010 reports were

                                                                OSHA’s Accountability Program
                                           4                     Report No. 02-12-204-10-105
                                           U.S. Department of Labor – Office of Inspector General



submitted in a summary format using a template provided by DEA that did not provide
comprehensive guidance. As a result, regions completed the template inconsistently
and with varying levels of detail. For FY 2011, DEA required regions to submit
comprehensive reports, but DEA again did not provide an approved report format to
ensure information was reported consistently. Our review of the 13 reports submitted for
FY 2011 revealed that 2 reports followed a summary format, 10 reports used a slightly
more detailed summary format, and 1 report was comprehensive. As a result, audit
reviews were not consistent from region to region.

DEA did not establish procedures for all planning reviews and did not provide
procedures on selecting and documenting the rationale for the focus review topic. The
MAP Directive requires Regional Administrators to prepare and submit an annual work
plan to DEA at the beginning of each fiscal year. The Directive requires a
comprehensive on-site review of each Area Office to be done on a regular scheduled
basis, but at least once every four years. The Directive allows, in the intervening years
between comprehensive reviews, a focus review on one or more selected work plan
topics or other aspects of an office's operations. Review of the four sampled regions
revealed each region had reviewed Area Offices following the Directive’s requirements
(see Exhibit 3). However, because the Regional Administrators have discretion on what
topics to choose, there was no consistency at the four sampled regional offices as to
how focus topics were selected. Regional staff stated that focus topics were selected at
management’s discretion during general meetings or from statistical data.

The instruction required DEA further to identify specific training needs and establish
training guidelines. OSHA officials have stated they do not provide any formal training to
staff to perform reviews because they did not have the funding resources. However, if
OSHA does not identify specific training needs and establish training guidelines, staff
involved in the MAP will lack the necessary knowledge, skills and abilities to perform the
reviews.

CONCLUSION

The attitude of management toward oversight can have a profoundly positive effect on
the implementation of internal controls. OSHA management has yet to demonstrate
complete commitment to recognizing and addressing management problems through
proactive national oversight of the MAP. The systemic weaknesses in DEA’s oversight
of the MAP occurred because OSHA has not emphasized the critical importance of the
MAP in providing OSHA with information on the performance of its programs. For
example, DEA assigned only one position the responsibility for performing day-to-day
MAP operational activities, a position that carried additional responsibilities beyond
monitoring MAP operations.




                                                                 OSHA’s Accountability Program
                                            5                     Report No. 02-12-204-10-105
                                          U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

In view of the crucial importance of the MAP in alerting OSHA to systemic weaknesses
in its programs and processes, we recommend the Assistant Secretary for Occupational
Safety and Heath strengthen DEA’s oversight by:

   1. prioritizing the development and enforcement of procedures for planning and
      reporting results to ensure that report results are consistent and comparable,

   2. holding DEA management responsible for disseminating MAP analyses to OSHA
      management as required, and

   3. determining how best to reallocate resources so that DEA is able to perform its
      monitoring oversight.

We appreciate the cooperation and courtesies that OSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                OSHA’s Accountability Program
                                           6                     Report No. 02-12-204-10-105
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                                   OSHA’s Accountability Program
              7                     Report No. 02-12-204-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA’s Accountability Program
              8                     Report No. 02-12-204-10-105
                                           U.S. Department of Labor – Office of Inspector General



                                                                                     Exhibit 1
Accountibility Program Review Topics

 PROGRAMMATIC FUNCTIONS
                        ADMINISTRATIVE ACTIVITIES 


 1. Inspection Targeting and Scheduling         1. Property Accountability
 2. Programmed Safety and Health                2. Government Service Administration Vehicles
    Inspections                                 3. Records Systems
 3. Construction Inspections                    4. Space Management
 4. Fatality/Catastrophe Investigations         5. Personnel Management
 5. Complaints                                  6. Personnel Actions and Procedures
 6. Referrals                                   7. Equal Employment Opportunity (EEO)
 7. Verification of Abatement                   8. Timekeeping
 8. Settlement of Cases                         9. Labor Relations
 9. Case File Documentation                     10. Financial Management
 10. Citation Processing                        11 Procurement
 11. Petitions to Modify Abatement              12 Debt Collection
 12. Technical Equipment/PPE                    13 Field Libraries
 13. Information Technology                     14 Training
 14. Response to Significant Events
 15. Denial of Entry/Warrant Application
 16. Management Controls
 17. Freedom of Information (FOIA)
      Requests
 18. Federal Agency Programs
 19. Area Office Outreach Activities
 20. Discrimination Complaints
 21. Safety and Health Program
 22. Teams
 23. State Plan Policies
 24. Partnership Programs
 25. VPP Programs
 26. Alliance Program
 27. Monitoring Consultation Projects




                                                                 OSHA’s Accountability Program
                                            9                     Report No. 02-12-204-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA’s Accountability Program
              10                    Report No. 02-12-204-10-105
                                     U.S. Department of Labor – Office of Inspector General



                                                                               Exhibit 2
FY 2010 Accountability Program Findings Summary


Program Area                                            Findings            Percent

Case File Documentation                                       218             35.0%
Complaints                                                     55              8.9%
Verification of Abatement                                      46              7.4%
Freedom of Information (FOIA) Requests                         41              6.6%
Management Controls                                            40              6.4%
Fatality/Catastrophe Investigations                            37              5.9%
Settlement of Cases                                            37              5.9%
Technical Equipment/PPE                                        28              4.5%
Citation Processing                                            18              2.9%
Referrals                                                      14              2.3%
Response to Significant Events                                 13              2.1%
Safety and Health Program                                      13              2.1%
Discrimination Complaints                                      12              2.0%
Inspection Targeting and Scheduling                            10              1.6%
Programmed Safety and Health Inspections                        9              1.4%
Construction Inspections                                        9              1.4%
Petitions to Modify Abatement                                   7              1.1%
Information Technology                                          7              1.1%
State Plan Policies                                             4              0.6%
Federal Agency Programs                                         2              0.3%
Partnership Programs                                            2              0.3%
Alliance Program                                                1              0.2%
Denial of Entry/Warrant Application                             0              0.0%
Area Office Outreach Activities                                 0              0.0%
Teams                                                           0              0.0%
VPP Programs                                                    0              0.0%
Monitoring Consultation Projects                                0              0.0%

Total                                                         623              100%




                                                           OSHA’s Accountability Program
                                      11                    Report No. 02-12-204-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA’s Accountability Program
              12                    Report No. 02-12-204-10-105
                                                    U.S. Department of Labor – Office of Inspector General



                                                                                               Exhibit 3
Sample Regions Focused (F) and Comprehensive (C) Workplan Schedule

Office                                    FY 2007     FY 2008     FY 2009      FY 2010      FY 2011

Philadelphia Region
   Philadelphia Regional Office              F            F           C            F            F
   Baltimore/ D.C. Area Office               F            F           C            F            F
   Wilmington Area Office                    F            C           F            F            F
   Allentown Area Office                     F            F           F            C            F
   Erie Area Office                          F            F           C            F            F
   Harrisburg Area Office 2 1F1F             *            C           F            F            C
   Philadelphia Area Office                  C            F           F            F            C
   Pittsburgh Area Office                    F            F           F            C            F
   Wilkes-Barre Area Office                  F            C           F            F            F
   Norfolk Area Office                       C            F           F            F            C
   Charleston Area Office                    F            F           F            C            F

Denver Region
  Denver Regional Office                     F            F           C            F            F
  Denver Area Office                         F            C           F            F            F
  Englewood Area Office                      F            F           C            F            F
  Billings Area Office                       F            F           F            C            F
  Bismarck Area Office                       C            F           F            F            C

Chicago Region
   Chicago Regional Office 3       2F2F      *            *           *            *            C
   Calumet City Area Office                  C            F           F            F            C
   Chicago North Area Office                 C            F           F            F            C
   Fairview Heights District Office          F            F           F            C            F
   North Aurora Area Office                  F            C           F            F            F
  Peoria Area Office                         F            F           F            C            F
   Indianapolis Area Office                  F            F           F            C            F
   Lansing Area Office                       C            C           F            F            F
  Eau Claire Area Office                     F            C           F            F            F
   Cincinnati Area Office                    F            F           C            F            F
  Cleveland Area Office                      F            F           C            F            F
  Columbus Area Office                       F            F           C            F            F
   Toledo Area Office                        F            F           F            C            F
   Appleton Area Office                      C            F           C            F            F
  Madison Area Office                        F            F           C            F            F
  Milwaukee Area Office                      F            C           F            F            F




2
  While there was no documentation of Harrisburg being in the workplan in 2007, they are currently in 

compliance with the requirement. 

3
  No reviews of the regional office were done in the past. However, OSHA national office provided 

independent participation in Chicago’s comprehensive review in FY 2011. 


                                                                          OSHA’s Accountability Program
                                                     13                    Report No. 02-12-204-10-105
                                     U.S. Department of Labor – Office of Inspector General




Dallas Region
   Dallas Regional Office        F         F           C            F            F
  Little Rock Area Office        C         F           F            C            F
   Baton Rouge Area Office       F         F           C            F            F
   Oklahoma City Area Office     F         C           F            F            F
   Austin Area Office            F         C           F            F            C
  Corpus Christi Area Office     C         F           F            F            C
   Dallas Area Office            F         F           C            F            F
   El Paso Area Office           C         F           F            C            F
   Fort Worth Area Office        C         C           F            F            F
   Houston North Area Office     F         F           C            F            F
   Houston South Area Office     F         C           F            F            F
   Lubbock District Office       C         F           F            C            F
   San Antonio District Office   F         C           F            F            C




                                                           OSHA’s Accountability Program
                                      14                    Report No. 02-12-204-10-105
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                     OSHA’s Accountability Program
                15                    Report No. 02-12-204-10-105
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  OSHA’s Accountability Program
             16                    Report No. 02-12-204-10-105
                                                    U.S. Department of Labor – Office of Inspector General



                                                                                              Appendix A
Background

With the Occupational Safety and Health (OSH) Act of 1970, Congress created the
Occupational Safety and Health Administration (OSHA) to ensure safe and healthful
working conditions for working men and women by setting and enforcing standards and
by providing training, outreach, education and assistance. The OSH Act covers
employers and their employees either directly through Federal OSHA or through an
OSHA-approved state program.

In August 2004, the Government Accountability Office (GAO) issued a report entitled,
“Occupational Safety and Health Administration’s (OSHA’s) Oversight of its Civil Penalty
Determination and Violation Abatement Processes Has Limitations,” Report Number
GAO-04-920. GAO reported that while OSHA’s National Office received copies of
regional reports, it did not review them or use them to monitor the extent to which
penalties were calculated correctly and violations were properly abated. In addition,
GAO pointed out that the information in the reports was not complete.

In response to this report, OSHA sought to improve its oversight of OSHA programs by
implementing MAP in FY 2006. The program, which was revised most recently in
September 2010, is implemented through Directive EAA 01-00-004 which established
Directorate for Evaluation and Analysis (DEA) as the responsible office for overseeing
the program. The program was established as one component of OSHA's internal
control system, as required by OMB Circular A-123. 4 Specifically, the MAP was
                                                                3F3F




implemented to: (1) assess the efficiency and effectiveness of field activities in relation
to established policies and procedures, and (2) identify best practices and deficiencies
in performance with the goal of improving program results. The MAP Directive provides
policy for reviewing agency programs and activities conducted by Regions and Area
Offices. Reviews of field activities are the main component of MAP and Regional
Administrators have responsibility for the review of all operations within their Regions.

DEA served as the focal point for the collection and dissemination of information
concerning the accountability program. The directive outlines specific responsibilities of
DEA, such as establishing policy and procedures, providing independent participation in
the comprehensive reviews, identifying specific training needs, and establishes training
guidelines. The directive also outlines specific responsibilities of the Regional
Administrators relating to: (1) planning the review, (2) conducting the review, and (3)
reporting results. There have been no changes made in the directive since our audit
was conducted.

During FY 2009-2010, GAO and DOL OIG issued seven reports with concerns of the
efficiency and effectiveness of several programmatic internal controls. OSHA officials
have identified MAP as the solution to several of the reported findings. In addition,
4
  OMB Circular A-123 requires that internal controls be an integral part of the entire cycle of planning,
budgeting, management, accounting, and auditing. Controls should support the effectiveness and
integrity of every step of the process and provide continual feedback to management.

                                                                            OSHA’s Accountability Program
                                                     17                      Report No. 02-12-204-10-105
                                          U.S. Department of Labor – Office of Inspector General



OSHA stated the directive was updated in September 2010 to address concerns of the
efficiency and effectiveness of several programmatic internal controls. The directive was
changed to improve communication of review priorities and response to report findings;
clarify the frequency, scope, and methodology of field reviews; and provide for greater
independence through DEA participation in Regional and selected Area Office Audits.




                                                                OSHA’s Accountability Program
                                           18                    Report No. 02-12-204-10-105
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Did DEA’s oversight of the MAP help ensure that OSHA programs were effective and in
compliance with national policies and procedures?

Scope

The audit examined FY 2007-2011 work plans and reports submitted to DEA in
FY 2010 and FY 2011 (as of March 31, 2011). We performed work at the OSHA
Headquarters in Washington, DC, and Philadelphia, Denver, Chicago, and Dallas
Regional Offices. The audit included examining OSHA’s 27 programmatic functions and
excluded the 14 administrative activities (see Exhibit 1).

Methodology

The audit included gaining an understanding of internal controls considered significant
to the audit objective and testing compliance with Federal Standards. In planning and
performing our audit, we considered if internal controls significant to the audit were
properly designed and placed in operation. This included reviewing OSHA’s policies and
procedures for conducting its Regional and Area Office reviews. There have been no
changes made in the directive since our audit was conducted. We gained an
understanding of factors such as review history and nature of potential critical work plan
topics for the subject office. We confirmed our understanding of these controls and
procedures through interviews and documentation review.

We reviewed policies, related reports from GAO and OIG, the applicable MAP Directive
from July 2007 and September 2010, and OSHA internal monitoring reports. We tested
compliance with monitoring procedures through a random statistical sample of 4 of the
10 regional area offices. We obtained testimonial and documentary evidence (through
management and staff interviews, policy and procedure reviews, and report testing) to
support our results and conclusions.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




                                                                OSHA’s Accountability Program
                                           19                    Report No. 02-12-204-10-105
                                         U.S. Department of Labor – Office of Inspector General



Criteria

      Occupational Safety and Health Act of 1970

      OMB Circular A-123, Management’s Responsibility for Internal Control

      EAA-01-00-004, OSHA Management Accountability Program Directive,
       September 15, 2010

      EAA-01-00-003, OSHA Management Accountability Program Directive
       (superseded by EAA-01-00-004), July 23, 2007




                                                               OSHA’s Accountability Program
                                          20                    Report No. 02-12-204-10-105
                                    U.S. Department of Labor – Office of Inspector General



                                                                           Appendix C
Acronyms and Abbreviations

DEA                   Directorate of Evaluation and Analysis

FOIA                  Freedom of Information Act

FY                    Fiscal Year

GAO                   Government Accountability Office

GOV                   Government Owned Vehicles

MAP                   Management Accountability Program

OIG                   Department of Labor Office of Inspector General

OMB                   Office of Management and Budget

OSH                   Occupational Safety and Health

OSHA                  Occupational Safety and Health Administration

PPE                   Personal Protective Equipment

VPP                   Voluntary Protection Programs

WPP                   Whistleblower Protection Program




                                                          OSHA’s Accountability Program
                                     21                    Report No. 02-12-204-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA’s Accountability Program
              22                    Report No. 02-12-204-10-105
                                U.S. Department of Labor – Office of Inspector General



                                                                       Appendix D
OSHA Response to Draft Report




                                                      OSHA’s Accountability Program
                                 23                    Report No. 02-12-204-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA’s Accountability Program
              24                    Report No. 02-12-204-10-105
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix E
Acknowledgements

Key contributors to this report were Mark Schwartz (Director), Mary Lou Casazza,
Renata Hobbs, Badara Kamara, and Eliacim Nieves Perez.




                                                               OSHA’s Accountability Program
                                          25                    Report No. 02-12-204-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA’s Accountability Program
              26                    Report No. 02-12-204-10-105
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
